         Office of Inspector General




December 8, 2004

KATHLEEN AINSWORTH
MANAGER, NORTHERN OHIO DISTRICT

SUBJECT:      Audit Report – Efficiency Review of the Mansfield, Ohio, Main Post Office
              (Report Number NO-AR-05-004)

This report presents the results of our review of the Mansfield, Ohio, Main Post Office
located in the Eastern Area (Project Number 04YJ008NO000). Our objective was to
determine the efficiency of work performed by the Mansfield, Ohio, Main Post Office
(Mansfield MPO). At management’s request, we also examined the proposed
consolidation of the outgoing mail processing operations into the Akron, Ohio,
Processing and Distribution Center (Akron P&DC).

The Mansfield MPO could improve operational efficiency by reducing 24,000 mail
processing workhours, based on the assumption that mail volume will not significantly
change from fiscal year (FY) 2003 levels. This would allow the Mansfield MPO to
achieve 90 percent of its targeted goals and could produce a cost avoidance of
approximately $7.6 million based on labor savings over ten years.

We also concluded there is a favorable business case to move the Mansfield MPO’s
outgoing mail operations to Akron P&DC. This consolidation would save an additional
28,000 workhours at the Mansfield MPO, improve network efficiencies, and potentially
upgrade delivery service. This workhour reduction could produce a cost avoidance of
over $9.6 million based on labor savings over ten years. We will report this amount and
the approximately $7.6 million in labor savings as funds put to better use in our
Semiannual Report to Congress.

We are making four recommendations in the report. We recommended the Manager,
Northern Ohio District, reduce mail processing at the Mansfield MPO by 52,000
workhours based on FY 2003 workhour usage. During the audit, Postal Service
management agreed to these reductions. Management’s comments and our evaluation
of these comments are included in this report.
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information please contact Robert J. Batta,
Director, Network Operations - Processing, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: Paul E. Vogel
    Alexander Lazaroff
    Christopher H. Smith
    Joseph W. Cinadr
    Steven R. Phelps
Efficiency Review of the Mansfield, Ohio,                                NO-AR-05-004
 Main Post Office



                                     TABLE OF CONTENTS

 Executive Summary                                                                 i

 Part I

 Introduction                                                                     1

     Background                                                                   1
     Objective, Scope, and Methodology                                            3
     Prior Audit Coverage                                                         4

 Part II

 Audit Results                                                                    5

     Assessment of Resources at the Mansfield, Ohio, Main Post Office             5
     Recommendations                                                              7
     Management Comments                                                          7
     Evaluation of Management’s Comments                                          7

     Assessment of Consolidating Mansfield, Ohio, Main Post Office’s              8
      Outgoing Mail Processing Operations
     Recommendations                                                             11
     Management’s Comments                                                       12
     Evaluation of Management’s Comments                                         12

 Appendix A. Eastern Area Map                                                    13
 Appendix B. Prior Audit Coverage                                                14
 Appendix C. Mansfield, Ohio, Main Post Office Targeted Productivity             17
                Levels FY 2003
 Appendix D. FY 2003 Group Six Plant Percentage Performance                      18
                Achievement
 Appendix E. Review of the Mansfield, Ohio, Main Post Office Analysis            19
                Summary Monetary Impact: Funds Put To Better Use
 Appendix F. FY 2003 Akron, Ohio, Processing and Distribution Center             20
                and Mansfield, Ohio, Main Post Office Mail Processing
                Capacity
 Appendix G. Failed Mailpieces from Steubenville, Ohio, Post Office by           21
                Month
 Appendix H. Youngstown, Ohio, PLANET CODE Scans from May 4                      22
                through June 4, 2004, and June 14 through July 13,
                2004
 Appendix I. Management’s Comments                                               23
Efficiency Review of the Mansfield, Ohio,                                          NO-AR-05-004
 Main Post Office


                                    EXECUTIVE SUMMARY
 Introduction                    The Office of Inspector General assessed the mail
                                 processing operations at the Mansfield, Ohio, Main Post
                                 Office (Mansfield MPO) located in the Eastern Area to
                                 determine the efficiency of its operations. At management’s
                                 request, we also examined the proposed consolidation of
                                 the outgoing mail processing operations into the Akron,
                                 Ohio, Processing and Distribution Center (Akron P&DC).

 Results in Brief                The Postal Service could increase operational efficiency at
                                 the Mansfield MPO by reducing 24,000 mail processing
                                 workhours, which would allow the Mansfield MPO to
                                 achieve 90 percent of targeted goals. This reduction is
                                 based on the assumption that mail volume will not
                                 significantly change from fiscal year (FY) 2003 levels and
                                 could produce a cost avoidance of approximately
                                 $7.6 million based on a labor savings over ten years.

                                 We also concluded there is a favorable business case to
                                 move the outgoing mail operations from the Mansfield
                                 MPO to the Akron P&DC. This consolidation would save
                                 28,000 workhours at the Mansfield MPO, improve network
                                 efficiencies, and potentially upgrade delivery service. This
                                 workhour reduction could produce a cost avoidance of over
                                 $9.6 million based on labor savings over ten years.

                                 Postal Service management addressed operational
                                 efficiency through the budget process focusing on workhour
                                 utilization against the plan. However, Postal Service
                                 management had not evaluated operational efficiency in the
                                 manner carried out by this audit, which included
                                 benchmarking operations, evaluating machine utilization, or
                                 analyzing trends.

 Summary of                      We recommended the Manager, Northern Ohio District,
 Recommendations                 reduce mail processing operations at the Mansfield MPO by
                                 52,000 workhours based on FY 2003 workhour usage. This
                                 reduction would be partially achieved through employee
                                 attrition and should be completed by the end of FY 2009,
                                 resulting in a 24,000 workhour reduction.
                                 The additional 28,000 workhour reduction in mail processing
                                 would be accomplished by consolidating the Mansfield MPO
                                 outgoing operation into the Akron P&DC by the end of
                                 FY 2005.


                                                i
Efficiency Review of the Mansfield, Ohio,                                          NO-AR-05-004
 Main Post Office




 Summary of                      Management agreed with our findings, recommendations,
 Management’s                    and associated monetary impact. They plan to reduce
 Comments                        workhours by 24,000 through employee attrition which
                                 should be completed by the end of FY 2009. They also
                                 agreed to reduce workhours by 28,000 in mail processing
                                 by consolidating the Mansfield MPO outgoing operation into
                                 the Akron P&DC by the end of FY 2005. Management’s
                                 comments, in their entirety, are included in Appendix I of
                                 this report.

 Overall Evaluation of           Management’s comments are responsive to our
 Management’s                    recommendations. Management’s comments reflect a
 Comments                        proactive and aggressive approach taken by the Manager,
                                 Northern Ohio District and the district’s plant management.
                                 District management plans to increase the Mansfield MPO
                                 productivity and improve their operations following the
                                 consolidation. They also agreed to reduce workhours by
                                 consolidating Mansfield MPO outgoing operations into
                                 Akron P&DC. Management’s planned actions should
                                 correct the issues identified in the findings.




                                                ii
Efficiency Review of the Mansfield, Ohio,                                                               NO-AR-05-004
 Main Post Office


                                              INTRODUCTION
    Background                        The Postal Service has 308 facilities with mail processing
                                      operations. These facilities process First-Class Mail in the
                                      domestic network and are divided into seven groups1
                                      ranked according to mail volume in the Breakthrough
                                      Productivity Initiative. The Postal Service established the
                                      Breakthrough Productivity Initiative to cut costs while
                                      making continuous improvements. The initiative focuses on
                                      four areas,2 one of which is mail processing operations.
                                      The following chart shows the number of mail processing
                                      facilities in each group.

                                                  Chart 1. Number of Facilities In Each Group

                                                                30                   41
                                                                                                                Group 1

                                               61                                                               Group 2
                                                                                                34
                                                                                                                Group 3
                                                                                                                Group 4
                                                                                                                Group 5
                                                                                                                Group 6
                                                                                             50                 Group 7
                                             42
                                                                       50



                                      The Postal Service is attempting to redesign its domestic
                                      network in response to changes in mail volume. Despite a
                                      one-year volume increase, the aggregate volume of
                                      First-Class Mail declined by nearly 2.7 percent from fiscal
                                      year (FY) 1999 to 2003, dropping more than 4 billion pieces.
                                      In addition, the forecast for First-Class Mail volume over the
                                      next 5 fiscal years shows a decrease of over 1 billion
                                      pieces. These volume trends are shown in Figures 1 and 2.




1
  In FY 2003, Breakthrough Productivity Initiative Group One plants processed at least 3 billion mailpieces, while
Group Seven plants processed no more than 456 million mailpieces annually. The Mansfield MPO processed
515 million pieces of mail in FY 2001, placing it in Group Six with other plants that processed similar amounts of mail.
2
  The four Breakthrough Productivity Initiative areas are Operations, Transportation, Purchasing, and Overhead.



                                                         1
Efficiency Review of the Mansfield, Ohio,                                                              NO-AR-05-004
 Main Post Office



                                               Figure 1. Actual First-Class Mail Volume

                               105.00
        Pieces in Billions


                               104.00
                               103.00
                               102.00
                               101.00
                               100.00
                                99.00
                                98.00
                                        1999           2000            2001          2002              2003
                                                                    Fiscal Years




                                           Figure 2. First-Class Mail Volume Forecast

                               97.8
                               97.6
          Pieces in Billions




                               97.4
                               97.2
                               97.0
                               96.8
                               96.6
                               96.4
                               96.2
                               96.0
                                        2004          2005             2006         2007               2008
                                                                   Fiscal Years


                                                  The Transformation Plan states the Postal Service is
                                                  committed to improving its operational efficiency by
                                                  consolidating mail processing operations, when feasible. In
                                                  addition, the Presidential Commission3 included in its list of
                                                  recommendations the need to optimize the facility network
                                                  by closing unneeded processing centers.

                                                  The Mansfield, Ohio, Main Post Office (Mansfield MPO) is a
                                                  Group Six facility in the Eastern Area (see Appendix A for a
                                                  map of the Eastern Area). The Mansfield MPO processes



3
    The President’s Commission on the United States Postal Service reported its findings on July 31, 2003.



                                                               2
Efficiency Review of the Mansfield, Ohio,                                                                 NO-AR-05-004
 Main Post Office


                                       inbound4 and outbound mail5 for the city of Mansfield,
                                       Ohio, and associate offices in the surrounding area. In
                                       FY 2003, the Mansfield MPO processed approximately
                                       580 million mailpieces, a 10 percent increase from FY 2002.
                                       In FY 2003, the Mansfield MPO’s outgoing mail operations
                                       accounted for approximately 12 percent of its total mail
                                       volume. In addition, the Mansfield MPO used approximately
                                       11 percent of its total mail processing workhours to process
                                       this mail. There are 167 career employees at the facility as
                                       well as 10 transitional6 and 8 casual7 employees.

    Objective, Scope, and              The audit assessed the efficiency of operations performed
    Methodology                        by the Mansfield MPO. At management’s request, we also
                                       examined the proposed consolidation of the outgoing mail
                                       processing operations into the Akron, Ohio, Processing and
                                       Distribution Center (Akron P&DC).

                                       To assess the efficiency of the Mansfield MPO, we
                                       observed mail processing operations; analyzed mail
                                       volumes, workhours, and service measurement systems;
                                       evaluated machine utilization; interviewed Postal Service
                                       officials; and benchmarked achievement to target
                                       productivities with similar-sized facilities.

                                       To examine the proposed consolidation, we reviewed an
                                       area mail processing8 study conducted in April of 2004 by
                                       the Eastern Area to determine the feasibility of consolidating
                                       the Mansfield MPO’s outgoing mail operations into the
                                       Akron P&DC. We also examined the March 1, 2004,
                                       consolidation of the Steubenville, Ohio, Post Office’s
                                       outgoing mail operations into the Youngstown, Ohio,
                                       Processing and Distribution Center to benchmark the effects
                                       on delivery service.

                                       We relied on Postal Service operational systems, including
                                       the Origin Destination Information System, the National

4
  Mail received by a Postal Service facility, most commonly for distribution and delivery within the delivery area of the
receiving facility.
5
  Outbound or outgoing mail is sorted within a mail processing center and dispatched to another facility for additional
processing and delivery.
6
  Transitional personnel are noncareer, bargaining unit employees.
7
  Casual employees may be used as limited-term supplemental workforce, but may not be used in lieu of full or
part-time employees.
8
  The area mail processing policy consolidates originating and destinating distribution operations from one or more
post offices into another automated or mechanized facility to improve operational efficiency and service. Pursuant to
this policy, the Mansfield MPO area mail processing study was issued on April 9, 2004.



                                                          3
Efficiency Review of the Mansfield, Ohio,                                                                 NO-AR-05-004
 Main Post Office


                                       Workhour Reporting System, the Breakthrough Productivity
                                       Initiative Website, the Management Operating Data System,
                                       Web Flash Reports, the Web Enterprise Information
                                       System, and the Web End-of-Run System to analyze mail
                                       volume and workhours. We confirmed our analysis and
                                       results with Postal Service managers.

                                       This audit was conducted from May through
                                       December 2004 in accordance with generally accepted
                                       government auditing standards and included such tests
                                       of internal controls as were considered necessary under
                                       the circumstances. We discussed our observations and
                                       conclusions with appropriate management officials and
                                       included their comments where appropriate.

   Prior Audit Coverage                We have issued four audit reports on workhour efficiency at
                                       international service centers9 and seven reports on
                                       efficiency at business mail entry units (BMEU).10 (See
                                       Appendix B for details.)




9
  An international exchange office or international service center is a post office or airport mail center or facility
authorized to exchange international mail and military mail, both air and surface, with another country.
10
   A BMEU is an area in a Postal Service facility where mailers present bulk, presorted, and permit mail for
acceptance. A BMEU includes dedicated platform space, office space, and a staging area on the workroom floor.



                                                          4
Efficiency Review of the Mansfield, Ohio,                                                               NO-AR-05-004
 Main Post Office



                                               AUDIT RESULTS
 Assessment of                        The Mansfield MPO could process domestic mail more
 Resources at the                     efficiently by reducing 24,000 workhours, allowing the MPO
 Mansfield, Ohio, Main                to achieve 90 percent of targeted goals. This reduction is
 Post Office                          based on the assumption that mail volume will not
                                      significantly change from FY 2003 levels. This workhour
                                      reduction would improve efficiency because the same mail
                                      volume could be processed using fewer workhours. Title 39
                                      United States Code (U.S.C.) § 403 (a) states, “The Postal
                                      Service shall plan, develop, promote, and provide adequate
                                      and efficient postal services . . . .”

                                      Management of the Mansfield MPO had addressed
                                      operational efficiency by reducing workhours in relation to
                                      budgeted workhours. As a result, they had reduced
                                      FY 2003 workhours by 3 percent from FY 2002. However,
                                      the Mansfield MPO had not evaluated operational efficiency
                                      by comprehensively benchmarking operations against
                                      similar-sized facilities, evaluating machine utilization, or
                                      analyzing trends. Consequently, the Mansfield MPO was
                                      not operating as efficiently as possible.

 Mansfield, Ohio, Main                The Mansfield MPO has achieved target productivity levels11
 Post Office Generally                for FY 2003 for three12 of its nine mail processing operations
 Did Not Meet                         (see Appendix C). Those operations that did not achieve
 Productivity Targets                 the target productivity were the delivery barcode sorter, mail
                                      processing barcode sorter, manual letters, flat sorter
                                      machine 1000, manual flats, and the advance facer canceler
                                      sorter operations. These operations achieved between
                                      44 percent and 77 percent of target productivity.

                                      Furthermore, operational productivity levels for some
                                      operations were low. For example, the delivery barcode
                                      sorter machine achieved 65 percent of the national target
                                      level in FY 2003. If this operation achieved 90 percent of
                                      the national target level, the Mansfield MPO could save over
                                      12,000 processing workhours annually. (Appendix C shows
                                      the percentage of targeted productivity levels achieved for


11
   Target productivity levels are based on total pieces of mail, and according to the Breakthrough Productivity Index,
should be processed for each machine or workhour of an operation.
12
   Target productivity was achieved for the following operations; manual Priority Mail and Parcel Post, upgraded flat
sorter machine, and the optical character reader.



                                                         5
Efficiency Review of the Mansfield, Ohio,                                                            NO-AR-05-004
 Main Post Office


                                       each operation and the potential workhour savings to be
                                       obtained by achieving selected targeted productivity levels.)

                                       In addition, the Mansfield MPO has been 11 percent below
                                       average in performance achievement when compared to
                                       similar-sized facilities. In FY 2003, the Mansfield MPO
                                       achieved 72 percent of its total targeted productivity, which
                                       was below the average (83 percent) of similar-sized
                                       facilities. In FY 2004, accounting period (AP) 1 through
                                       AP 10,13 the Mansfield MPO achieved only 68 percent of its
                                       target performance. (See Appendix D for a chart comparing
                                       the Mansfield MPO’s targeted productivity levels with
                                       similar-sized facilities). In addition, 25 similar-sized facilities
                                       (67.5 percent) came closer than the Mansfield MPO in
                                       achieving their target productivity goals year-to-date in 2004,
                                       and 15 (40.5 percent) of these similar-sized facilities are
                                       operating at 90 percent of target or better.

 Machine Excess Idle                   Through analysis and observation, we found that machine
 Time Identified at the                excess idle time existed at many of the mail processing
 Mansfield, Ohio, Main                 operations. The following table shows an analysis of excess
 Post Office                           idle time for a two-year period from July 2002 through
                                       June 2004.

                                       Table 1. Machine Excess Idle Time
                                                    OPERATION               PERCENTAGE OF IDLE TIME
                                        Advanced Facer-Canceler                    32 percent
                                        Delivery Barcode Sorter                    38 percent
                                        Multi Line Optical Character Reader        38 percent
                                        Mail Processing Barcode Sorter             44 percent
                                        Upgraded Flat Sorter Machine 1000          29 percent
                                       *Percentage of machine idle time does not include down or maintenance time.

                                       Our observations corroborate this analysis. We observed
                                       that various operations were idle because of sporadic mail
                                       volume. Operations are most efficient when a continuous
                                       stream of mail is present. Reducing workhours through
                                       better scheduling and possible elimination of a tour would
                                       reduce idle time.

                                       Based on these productivity factors, we believe, and Postal
                                       Service management agreed, that a goal of operating at
                                       90 percent of target productivity levels is attainable. The
                                       Postal Service also agreed to reduce machine idle time.

13
     We measured similar periods for all Group Six offices in FY 2004.



                                                          6
Efficiency Review of the Mansfield, Ohio,                                          NO-AR-05-004
 Main Post Office


                                  To obtain these goals, the Mansfield MPO would need to
                                  reduce workhours by 24,000 (assuming no significant
                                  changes in mail volumes). This 24,000 workhour reduction
                                  could produce a cost avoidance of $7.6 million based on
                                  labor savings over ten years (see Appendix E for details).

 Recommendations                  To improve efficiency, we recommend the Manager,
                                  Northern Ohio District:

                                       1. Reduce 24,000 workhours at the Mansfield Main Post
                                          Office, based on FY 2003 workhour usage, by the
                                          end of FY 2009, with an associated economic impact
                                          of $7.6 million over ten years.

                                       2. Evaluate operating efficiency and staffing at the
                                          Mansfield Main Post Office to determine whether
                                          further workhour adjustments are necessary based
                                          on workload.

 Management’s                     Management agreed with our finding, recommendations,
 Comments                         and associated monetary impact. The Manager, Northern
                                  Ohio District agreed reduce workhours by 24,000 through
                                  employee attrition by the end of FY 2009 and realign staffing
                                  and scheduling to increase automation throughput and
                                  improve productivity.

 Evaluation of                    Management’s comments are responsive to the
 Management’s                     recommendations. Management’s comments reflect a
 Comments                         proactive and aggressive approach taken by the Manager,
                                  Northern Ohio District and the district’s plant management.
                                  District management plans to increase the productivity at the
                                  Mansfield MPO to 90 percent of its Breakthrough
                                  Productivity Initiative goal. They are also committed to
                                  improving their operations following the consolidation.
                                  Management’s planned actions should correct the issues
                                  identified in the finding.




                                                7
Efficiency Review of the Mansfield, Ohio,                                            NO-AR-05-004
 Main Post Office




 Assessment of                    The Postal Service realized that excess processing capacity
 Consolidating                    exists within the Northern Ohio District domestic mail
 Mansfield, Ohio, Main            processing network. To make better use of this capacity,
 Post Office’s Outgoing           the Postal Service considered consolidating the Mansfield
 Mail Processing                  MPO’s outgoing mail operations into the Akron P&DC and
 Operations                       requested that the OIG examine this proposed
                                  consolidation.

                                  We concluded there is a favorable business case to move
                                  the outgoing mail operations from the Mansfield MPO to the
                                  Akron P&DC. Specifically, consolidation would:

                                       •    Enable the Mansfield MPO to reduce craft workhours
                                            by an additional 22,000 and supervisory hours by
                                            6,000.

                                       •    Allow the Akron P&DC to gain efficiencies through the
                                            use of excess capacity, more efficient mail
                                            equipment, and reduced standby time.

                                       •    Enable the Postal Service to potentially improve
                                            delivery service.

                                  Title 39 U.S.C § 403 (a) states, “The Postal Service shall
                                  plan, develop, promote, and provide adequate and efficient
                                  postal services . . . .” Postal Service management had not
                                  evaluated this consolidation by benchmarking operations
                                  against similar-sized mail processing facilities, evaluating
                                  machine utilization, or analyzing trends.

 Workhours Would Be               The transfer of the outgoing mail currently processed at the
 Reduced at the                   Mansfield MPO to the Akron P&DC would reduce mail
 Mansfield, Ohio, Main            volume and processing craft workhours at Mansfield MPO
 Post Office                      by an additional 22,000. This consolidation would also allow
                                  the Mansfield MPO to reduce 6,000 supervisor workhours.
                                  The economic impact of this reduction could produce a cost
                                  avoidance of $9.6 million over ten years (see Appendix E for
                                  details).

                                  Under the proposed consolidation plan, no Mansfield MPO
                                  career craft employees would lose their position. Postal
                                  Service management stated that for transitional and casual
                                  employees, the appropriate contractual provisions would be
                                  followed.


                                                   8
Efficiency Review of the Mansfield, Ohio,                                                NO-AR-05-004
 Main Post Office



 Processing Mansfield                  Our review found that processing the Mansfield MPO’s
 MPO’s Outgoing Mail in                outgoing mail operations in the Akron P&DC would be more
 the Akron P&DC Would                  efficient. Efficiency gains could be achieved by using the
 Be More Efficient                     excess capacity at the Akron P&DC, more efficient mail
                                       processing equipment, and the reduction in standby time.

                                       Our review found the Akron P&DC has excess capacity.
                                       The Akron P&DC processed over 1.2 billion mailpieces in
                                       FY 2003 and has the capacity to process more than
                                       500 million additional mailpieces per year. The Mansfield
                                       MPO’s outgoing mail operations accounted for more than
                                       69 million (12 percent) of its total mailpieces processed in
                                       FY 2003. Consequently, the Akron P&DC can readily
                                       process Mansfield MPO’s outgoing mail operations. The
                                       Akron P&DC’s and Mansfield MPO’s mail processing
                                       capacity are shown in Appendix F.

                                       The Akron P&DC also has more advanced automated
                                       equipment than the Mansfield MPO. The Akron P&DC has
                                       two automated flat sorter machine 100s, while the Mansfield
                                       MPO does not have this equipment. These machines
                                       maximize efficiency in flat mail processing. The Akron
                                       P&DC will also receive the Mansfield MPO’s two advanced
                                       facer-canceler machines under the proposed consolidation
                                       plan. Acquiring this processing equipment will allow the
                                       Akron P&DC to process mail more efficiently.

                                       We determined that processing the Mansfield MPO’s
                                       outgoing mail can reduce the Akron P&DC’s use of standby
                                       time through an increase in mail processing volume. In
                                       FY 2004 (AP 1 thru AP 10,14) the Akron P&DC used an
                                       average of 446 hours of standby time per accounting period.
                                       For AP 9 of FY 2004, the Akron P&DC used over 900 hours
                                       of standby time. The Akron P&DC’s standby time per
                                       accounting period since the beginning of FY 2004 follows.




14
     Accounting periods for the current fiscal year were used to document performance.



                                                         9
Efficiency Review of the Mansfield, Ohio,                                                                 NO-AR-05-004
 Main Post Office



                                FY 2004 (AP 1 THROUGH AP 10 )
                      AKRON, OHIO, PROCESSING AND DISTRIBUTION CENTER
                                      STANDBY TIME USE
   1000



    900



    800



    700
                  Average 446 Stand-By Hours used per AP in FY 2004

    600



    500



    400



    300



    200



    100



      0
           AP01      AP02      AP03         AP04      AP05           AP06        AP07      AP08       AP09          AP10



 Delivery Service Would           Delivery service would improve for areas serviced by both
 Improve                          the Mansfield MPO and the Akron P&DC by modifying some
                                  transportation routes. The following chart illustrates the
                                  Akron P&DC’s and the Mansfield MPO’s current delivery
                                  service standards and the impact the proposed
                                  consolidations would have on delivery service. This chart
                                  shows that five sites would potentially change from two-day
                                  service to overnight.

                                      Chart 2. Delivery Service Standards
                                                     Akron, Ohio, Processing and           Mansfield, Ohio, Main Post
                                                         Distribution Center                         Office
                                                       Current              Proposed        Current            Proposed

                                      Ohio Service           Two-                   Two-           Two-                  Two-
                                                   Overnight            Overnight        Overnight           Overnight
                                         Area                Day                    Day            Day                   Day

                                      Akron            X                     X               X                  X
                                      Canton           X                     X               X                  X
                                      Cleveland        X                     X               X                  X
                                      Columbus                   X           X               X                  X
                                      Lima                       X           X               X                  X
                                      Steubenville     X                     X                        X         X
                                      Toledo                     X           X               X                  X
                                      Youngstown       X                     X                        X         X




                                                      10
Efficiency Review of the Mansfield, Ohio,                                                            NO-AR-05-004
 Main Post Office


                                     To determine whether service would improve through the
                                     proposed consolidation of the Mansfield MPO and the Akron
                                     P&DC, we reviewed a similar consolidation15 and found that
                                     delivery service improved.

                                         •    From March 2004 (the consolidation date) to
                                              May 2004, there was a 41 percent decrease in the
                                              average number of failed16 mailpieces from the
                                              Steubenville, Ohio, Post Office when compared to the
                                              four months before consolidation. This decline in
                                              failures represents an improvement in delivery
                                              service, because more First-Class Mail was being
                                              delivered on time.

                                         •    Postal Service testing showed that 99 percent of
                                              First-Class Mail met delivery service standards.
                                              Appendix G shows failed mailpieces from the
                                              Steubenville, Ohio, Post Office by month from
                                              October 2003 to May 2004. Appendix H shows
                                              results of the internal Postal Service testing of
                                              First-Class Mail.

                                     We concluded that delivery service improved after the
                                     consolidation. In our opinion, this could also potentially
                                     occur if the Mansfield MPO’s outgoing mail were moved to
                                     the Akron P&DC.

 Recommendations                     We recommend the Manager, Northern Ohio District:

                                              3. Reduce the Mansfield Main Post Office mail
                                                 processing craft workhours by an additional
                                                 22,000 and 6,000 supervisory workhours, with an
                                                 associated monetary impact of $9.6 million over
                                                 ten years.

                                              4. Consolidate the Mansfield Main Post Office
                                                 outgoing mail operations into the Akron
                                                 Processing and Distribution Center, as planned.




15
   Steubenville, Ohio, Post Office’s outgoing mail operations consolidated into the Youngstown, Ohio, Processing and
Distribution Center.
16
   Mailpieces recorded in the Origin Destination Information System that did not meet overnight delivery standards.



                                                      11
Efficiency Review of the Mansfield, Ohio,                                          NO-AR-05-004
 Main Post Office




 Management’s                     Management agreed with our finding, recommendations,
 Comments                         and associated monetary impact. The Manager, Northern
                                  Ohio District agreed to reduce workhours by 28,000 in mail
                                  processing by consolidating the Mansfield MPO outgoing
                                  operation into the Akron P&DC by the end of FY 2005.

 Evaluation of                    Management’s comments are responsive to the
 Management’s                     recommendations. Management’s comments reflect the
 Comments                         proactive and aggressive approach taken by the Manager,
                                  Northern Ohio District and the district’s plant management.
                                  They agreed to reduce workhours by the consolidation of
                                  Mansfield MPO outgoing operations into the Akron P&DC.
                                  Management’s planned actions should correct the issues
                                  identified in the finding.




                                               12
Efficiency Review of the Mansfield, Ohio,                                                                                                                                                                                                                                    NO-AR-05-004
 Main Post Office



                                                                                                                                        APPENDIX A

                                                                                                                     EASTERN AREA MAP

                                                                                               Erie
   Eastern AreaNorthern Ohio                                                            155,157-168

                                                                                                                                          ERIE                          167
                                                                                                                                                                                        169
                                                                                                                                                                                                            188

                                                                                                                                                                                                             Wilkes-Barre
                                                                                                                                                                                                             186-7
                                                                                                                                                                                                                            Scranton

                                                                                                                                                                                                                            184-5
                                                                                                                                                                                                                                                        Central PA
                                                                                                                                                                                                                                                  169-176,177-179, 182,
                                                                                                                                                                                                                                                    184-188, 195-196
                                                                                                                                      164-5                                                                                     183
                                                                                                                                                                                      Williamsport
                                                                    439, 440-449
                                                                                                                                                   163
                                                                                                                     CLEVELAND
                                                                                                                    440-1                New
                                                                                                                                                                    158
                                                                                                                                                                                              177
                                                                                                                                                                                                      178
                                                                                                                                                                                                                     182
                                                                                                                                                                                                                                180-1                      Philadelphia
                                                                                                                                                                                                                              Lehigh Valley
                                                                         Toledo                                                         Castle                                      168
                                                                     434-6
                                                                                                                          Youngstown                      162                                                  179
                                                                                                                                                                                                                Reading                189                    Metro
                   Columbus                                                                448-9
                                                                                                           AKRON
                                                                                                           442-3             444-5
                                                                                                                                       161       160
                                                                                                                                                                  157
                                                                                                                                                                            Altoona        HARRISBURG                195-6
                                                                                                                                                                                                                                194                        180-1, 183, 189-194




                                                                                                                                                                                                                                           2
                                                                                                                                                                                              170-1                                             PHILADELPHIA
            430-433,437-438,456-457




                                                                                                                                                                                                                                         0-
                                                                                        Mansfield




                                                                                                                                                                                                                                       19
                                                                                                                                                                                                                     Southeastern
                                                                  458                                         Canton                                                          166
                                                                  Lima                                                446-7                 PITTSBURGH                Johnstown
                                                                                                                                                                                                            LANCASTER
                                                                                                                                                                                                                             193               SOUTH
                                                                                                                                          150-2            156        159                                                                      JERSEY
                                                                                   433                                     Steubenville                      Greensburg                   172        173-6
                                                                                                                                                                                                                                         080-1,3




                                                                                                                                                                                                                                                      ,4
                                                                                                                                439                                                                                  197-8




                                                                                                                                                                                                                                                   082
                                                                                                            Zanesville
                                                                                                                                             153          154         155                                          Wilmington
                                                                                                                                       Wheeling
                                                                                                                                      260                                           254                                            199
                                                                   453-5                                     437-8
                                                                                        COLUMBUS                                                 265
                                                                                        430-2                                                                                 267
                                                                  Dayton

       Cincinnati                                                                                             457
                                                                                                                                      Clarksburg

                                                                                                                                        263-4                                                    Pittsburgh
                                                                                                                          261                                       268
      410, 434-436,450-                                                  CINCINNATI         Chillicothe                                                                                         150-154,156, 260
       455,458-459,470                                     470
                                                                           450-2               456                        250-3         266
                                                                                                                                                       262
                                                                                                                                                                                                                                                 South Jersey
                                                                                                                      CHARLESTON                                                                                                                    080-084,197-199
                                                                     410
                                                                                           Ashland
                                                                                                                                                                                                     Appalachian
                                                                                                           Huntington                               249                                         240-243, 245-259, 261-268
                                                                                                411-2       255-7
                                              471
                                                                                                                                  258-9                                       Lynchburg
                       476-7                         LOUISVILLE             Lexington
                      Evansville
                                                        400-2
                                                                         403-6
                                                                                         413-4          415-6
                                                                                                                            247-8
                                                                                                                          Bluefield                                         245                                                                         Greensboro
                                                                                                                                                          Roanoke
                                                                                                                                                          240-1
                                                                                                                                                                                                                                                           270-279, 286
                                                                                                                          246
                                   423               427                                        417-8                                                                                                                            279
                       424                                                                                                              243
                                                                                      London
                                                                                                             242                                                                                               278
                                                                    425-6             407-9
                                           Bowling                                                        Bristol                                                                                               Rocky
                                                                                                                                                                GREENSBORO
                                                                                                                                                                                            275-7
                                            Green                                                                                                                                                               Mount
                                   421-2                                                                                                                                                   Raleigh
            Paducah
                                                                                                                                       286
             420                                                                                                                          Hickory                     270-4
                                                                                                                                                                                                                  Kinston


                                                                                                             Asheville
                                                                                                                                                     CHARLOTTE
                                                                                                                                                                                      Fayetteville
                                                                                                                                                                                                                      285                               Mid-Carolinas
                                                                                                                                            280-2
                                                                                                     287-9                                                                                283
                                                                                                                                                                                                                                                        280-285, 287-289, 297
                                                                                                                                                    297
                             Kentuckiana                                                                            296           293                                                                  284
                                                                                                             Greenville
                400-409,411-418,420-427,471,476-477                                                                                                                                 295
                                                                                                                                                       290-2                          Florence
                                                                                                                                                                                                                                                               District & P&DC
                                                                                                                                                     COLUMBIA
                                                                                                                                                                                                                                                               P&DC/P&DF/CSF

                           Greater South Carolina                                                                                                                                                                                                              L&DC
                                                      290-296                                                                                                                                                                                                  BMC
                                                                                                                                                                          294
                                                                                                                                                                                                                                                               AMC/AMF
                                                                                                                                                                    Charleston
                                                                                                                                                                                                                                                               REC

 11/14/03




                                                                                                                                                           13
Efficiency Review of the Mansfield, Ohio,                                   NO-AR-05-004
 Main Post Office



                                            APPENDIX B

                                  PRIOR AUDIT COVERAGE

Work Performed by Business Mail Entry Employees in the Colorado/Wyoming
Performance Cluster (Report Number CQ-AR-02-001, September 26, 2002), found that
many business mail entry employees at the Denver Bulk Mail Center and Denver
General Mail Facility were not needed to accept business mailings. Management could
save an estimated $1 million annually if the number of employees was reduced. We
recommended management oversee the consolidation of business mail entry
operations and reduce staff as planned, and reevaluate staffing to determine whether
further staff reductions were necessary. Management agreed, and the actions taken
and planned were responsive to the issues identified in the report.

Work Performed by Business Mail Entry Employees in the Seattle, Minneapolis, and
Des Moines Bulk Mail Centers (Report Number CQ-AR-03-001, March 28, 2003), found
that these facilities should reduce the workhours necessary to accept business mailings.
Management could save an estimated $588,730 through the end of FY 2005, when its
planned workhour reductions will be fully implemented. We recommended senior plant
managers at the Seattle, Minneapolis, and Des Moines Bulk Mail Centers reduce hours,
reevaluate staffing needs periodically, and ensure that appropriately trained personnel
perform acceptance functions. Management agreed, and the actions taken and
planned were responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the Los Angeles
District (Report Number AO-AR-03-001, July 31, 2003), found that the district should
reduce the workhours necessary to accept business mailings. During the audit, Postal
Service management agreed to aggressively reduce business mail entry workhours by
28,800 hours by the end of FY 2005. This reduction in workhours could produce an
estimated cost avoidance of approximately $9.26 million over ten years. We
recommended the Manager, Los Angeles District, reduce hours and reevaluate staffing
needs periodically. Management agreed with our recommendations and has initiatives
in progress addressing the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks Within the San Francisco
District (Report Number AO-AR-03-002, September 25, 2003), found that the district
should reduce the workhours necessary to accept business mailings in the
San Francisco Business Mail Entry Unit. During the audit, Postal Service management
agreed to aggressively reduce business mail entry workhours by 18,000 hours by the
end of FY 2006. This reduction in workhours could produce an estimated cost
avoidance of approximately $6.9 million over ten years. We recommended the




                                               14
Efficiency Review of the Mansfield, Ohio,                                    NO-AR-05-004
 Main Post Office


Manager, San Francisco District, reduce hours as planned and reevaluate staffing
needs periodically. Management agreed, and the actions taken and planned were
responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks at the Southern Maryland
Business Mail Entry Unit (Report Number NO-AR-04-001, December 24, 2003), found
that the district should reduce the workhours necessary to accept business mailings in
the Southern Maryland Business Mail Entry Unit. During the audit, Postal Service
management agreed to aggressively reduce business mail entry workhours by
20,240 hours by the end of FY 2006. This reduction in workhours could produce an
estimated cost avoidance of approximately $8.4 million over ten years. We
recommended the Manager, Capital District, reduce hours as planned and reevaluate
staffing needs periodically. Management agreed, and the actions taken and planned
were responsive to the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the Columbia, Maryland,
Business Mail Entry Unit (Report Number NO-AR-04-002, December 26, 2003), found
that the district should reduce the workhours necessary to accept business mailings in
the Columbia, Maryland, Business Mail Entry Unit. During the audit, Postal Service
management agreed to reduce business mail entry workhours by 3,960 hours by the
end of FY 2005. This reduction in workhours could produce an estimated cost
avoidance of approximately $1.4 million over ten years. We recommended the
Manager, Baltimore District, reduce hours as planned and periodically reevaluate
staffing. Management agreed, and the actions taken and planned were responsive to
the issues identified in the report.

Efficiency of Work Performed by Business Mail Entry Clerks in the Springfield, Virginia,
Business Mail Entry Unit (Report Number NO-AR-04-004, February 9, 2004), found that
the district should reduce the workhours necessary to accept business mailings in the
Springfield, Virginia, Business Mail Entry Unit. During the audit, Postal Service
management agreed to reduce business mail entry workhours by 2,775 hours by the
end of FY 2006. This reduction in workhours could produce an estimated cost
avoidance of $969,893 over ten years. We recommended the Manager, Northern
Virginia District, reduce hours as planned and periodically reevaluate staffing.
Management agreed, and the actions taken and planned were responsive to the issues
identified in the report.

Efficiency of the San Francisco International Service Center and the General Services
Administration Facility (Report Number NO-AR-04-006, March 31, 2004), found that the
district should reduce the workhours necessary to process mail at the San Francisco
International Service Center (ISC), transfer mail from the General Services
Administration (GSA) Facility to the San Francisco ISC, and close the GSA facility.
During the audit, Postal Service management agreed to reduce mail processing
workhours at the San Francisco ISC by 120,000 hours by the end of FY 2007. This
reduction in workhours could produce an estimated cost avoidance of approximately



                                            15
Efficiency Review of the Mansfield, Ohio,                                     NO-AR-05-004
 Main Post Office


$39 million over ten years. In addition, management agreed to close the GSA facility,
which could produce a cost avoidance of approximately $5.2 million over ten years. We
recommended the manager, San Francisco District, reduce hours as planned, close the
GSA facility, and periodically reevaluate staffing. Management agreed, and the actions
taken and planned were responsive to the issues identified in the report.

Efficiency of the Oakland International Service Facility and the Regatta Facility (Report
Number NO-AR-04-007, March 31, 2004), found that the district should reduce the
workhours necessary to process mail at the Oakland International Service Facility,
transfer mail from the Regatta Facility, and close the Regatta facility. During the audit,
Postal Service management agreed to reduce mail-processing workhours at the
Oakland ISC by 25,000 hours by the end of FY 2006. This reduction in workhours could
produce an estimated cost avoidance of approximately $5.4 million over ten years. In
addition, management agreed to close the Building 512 rather than the Regatta facility
due to an early termination of the Building 512 lease. The closure of the Building 512
could produce a cost avoidance of approximately $3.4 million. We recommended the
Manager, Oakland District, reduce hours as planned, close Building 512, and
periodically reevaluate staffing. Management agreed, and the actions taken and
planned were responsive to the issues identified in the report.

Efficiency of the New York International Service Center (Report Number NO-AR-04-
009, September 24, 2004), found that the New York ISC could improve the efficiency of
processing international and military mail by reducing employee workhours by
326,000 and increasing supervisory workhours by 6,000, for a net reduction of
320,000 workhours. This 320,000-workhour reduction could produce a cost
avoidance of more than $98 million based on labor savings over ten years. We made
two recommendations to Postal Service management addressing these issues.
Management agreed to our finding, recommendations, and monetary impact and has
initiatives in progress or planned addressing the issues in this report.

Efficiency of the Airmail Records Unit at the New York International Service Center
(Report Number NO-AR-04-011, September 24, 2004), found that the New York ISC
could improve the efficiency of the AMRU by reducing workhours by 30,000.
Management should also consider outsourcing the AMRU, since this operation is not
core to New York ISC’s mission of processing international mail. A 30,000-hour
reduction in workhours could produce a cost avoidance of $9,248,967 based on labor
savings over a ten-year period. We made two recommendations to Postal Service
management addressing these issues. Management agreed to our finding,
recommendations, and monetary impact and has initiatives in progress or planned
addressing the issues in this report.




                                            16
Efficiency Review of the Mansfield, Ohio,                                                 NO-AR-05-004
 Main Post Office


                                                            APPENDIX C

                                            MANSFIELD, OHIO, MAIN POST OFFICE
                                             TARGETED PRODUCTIVITY LEVELS
                                                         FY 2003



                                                                      TARGET
    MAIL PROCESSING OPERATION               PRODUCTIVITY TARGET                          POTENTIAL WORKHOUR SAVINGS
                                                                     ACHIEVED
                                           2003      2003 TARGET        2003          100%         90%         80%       70%
Delivery Barcode Sorter                       7,867          12,019      65%           13,627      12,265       10,902     7,631
Multi Line Optical Character Reader           9,423           8,869     106%              (306)       (275)       (245)     (171)
Mail Processing Barcode Sorter                7,300          12,161      60%             5,786       5,208       4,629     3,240
Manual Letters                                  565           1,119      50%           15,255      13,729       12,204     8,543
Flat Sorter Machine 1000                        261             567      46%           15,642      14,078       12,513     8,759
Upgraded Flat Sorter Machine                  2,414           1,200     201%          (20,344)    (18,310)     (16,275) (11,393)
Manual Flats                                    401             913      44%               212         191         170       119
Manual Priority & Parcel Post                   930             583     160%            (3,889)     (3,500)     (3,111)   (2,178)
Advance Facer Canceler Sorter                16,092          20,890      77%               765         688         612       428
MANSFIELD LDC 11-14* TOTAL                 2,063.31           2,793      74%            26,748      24,073       21,399   14,979
*Labor Distribution Code (LDC) for Automated Letters and Flats, Mechanized Letters and Flats, Mechanized Other,
and Manual Distribution
Note: Operations that achieved more than 100 percent exceeded there targeted productivity.




                                                                  17
     MA
          RY
           SV
                I




                                 0.0%
                                                   83.0%
                                                                         166.0%
       SIO LLE
            UX          PD
                  CI         F
        MA           TY
             NK           PO
                   AT
           AL          O
               B A PO
        OL           N
            Y M Y PO
                  PIA
         SA
                                                                                                                                     Main Post Office




             L IN P D F
      RO
         CH A S P
             ES            DF
                   T
          MU ER P
              NC            O
       WA           I
           TE E P D
      GU R L O               F
          LF           O
             PO           P O
        MI         RT
           DL           PD
      LA        A            F
         FA ND P
 BL         Y              D F
                                                                                                                                    Efficiency Review of the Mansfield, Ohio,




     OO       ET
        MI          T
           NG E P D
                TO           F
          RE          N
                        PD
    GR       DD              F
       EE          I
   TE      NS N G P
      RR       BU           O
         EH          RG
              AU          P O
                    TE
          DU            PD
              L              F
       O S UT H
           HK           PD
      FL        OS           F
                     H
         OR
             EN         P  D
        HI         CE F
   CL      CK           PD
      AR        O            F




18
         K S RY P
             BU            D
                   RG F
    BU       U          P  DF
       RL T I CA
   BI     IN            P
      NG G T O D F
                      N
                                                                                                                       APPENDIX D




         HA             PD
   PO        MT
      RT           ON F
         SM             PD
             O               F
       MA UTH
           NS           PD
               F IE          F
       CO
                                                                                         FY 2003 GROUP SIX PLANT




           LU LD P
      BE      MB            O
         AU          US
             MO           P O
                   NT
                        PD
                  E          F
         M C RI E
    TA       AL           P
                                                                                                                                                          NO-AR-05-004




CO     LL          LE O
                       N
                                                                                  PERCENTAGE PERFORMANCE ACHIEVEMENT




   RP     AH
              AS          PO
      US
          C H SE P
              RI           DF
       LU         ST
                       IP
          BB
              OC           D C
NE AM A             K
   W                    P  DF
      CA R I L L
         ST           O
             L          PD
    LY
       NC
               EP            F
                     DF
 WI        H B           /P
    LK                      O
       ES U RG
          -B            P  D
             AR
                                        83% Average for Group 6 Plants




       LA          RE F
          FA            PD
              YE             F
         BA        TT
                        EP
             NG
                   OR O
                        PD
            WA
                   CO        F
                        PD
                             F
Efficiency Review of the Mansfield, Ohio,                               NO-AR-05-004
 Main Post Office



                                            APPENDIX E

                                REVIEW OF THE
                       MANSFIELD, OHIO, MAIN POST OFFICE
                              ANALYSIS SUMMARY

               MONETARY IMPACT: FUNDS PUT TO BETTER USE


     Recommended Action                                     Time Frame: Ten Fiscal Years
            and                             Workhour
      Employee Category                     Reduction
          Impacted                                       Undiscounted    Discounted Savings
                                                           Savings       (Net Present Value)


 Efficiency Improvement:                       24,000    $10,968,847           $7,598,951
 Mail Processing Clerks17

 Consolidation:
 Supervisors18                                 6,000       3,019,593           2,306,826

 Consolidation:
                                               22,000     9,526,279            7,277,627
 Mail Processing Clerks19

 Total                                         52,000    $23,514,719         $17,183,404
Notes
   • Cost avoidance was calculated using the workhour reduction multiplied by the
      fully loaded labor rate.
   • Labor cost is escalated at 2.7 percent.
   • Net present value was calculated using the discount rate of 5 percent.
   • Fully loaded labor rates are based on the Postal Service’s 2004 published rates.
   • Labor cost escalation was based on the Postal Service’s 2004 published
      Decision Analysis Factors.
Funds Put To Better Use: Funds that can be used more efficiently by implementing
recommended actions.



17
   Pay Level 5.
18
   Pay Level 17.
19
   Pay Level 5.



                                                  19
Efficiency Review of the Mansfield, Ohio,                                                                                         NO-AR-05-004
 Main Post Office



                                                                                   APPENDIX F

 FY 2003 AKRON, OHIO, PROCESSING AND DISTRIBUTION CENTER
                           AND
    MANSFIELD, OHIO, MAIN POST OFFICE MAIL PROCESSING
                         CAPACITY



                                         1,400,000                    1,200,459



                                         1,200,000
     Total Annual Pieces Handled (000)




                                                                                            579,240
                                         1,000,000



                                           800,000



                                            600,000

                                                                                                                            161,635
                                            400,000



                                            200,000                                                                                       MANSFIELD
                                                                                                         504,202


                                                     0
                                                                                                                                  AKRON

                                                         Mail Akron and Mansfield work

                                                                                           Additional mail Akron and
                                                                                         Mansfield could work at capacity


                                                                                     AKRON      MANSFIELD



NOTE: The Akron P&DC has the capacity to process the Mansfield MPO’s
outgoing mail operations, which total over 69 million pieces annually.




                                                                                          20
                          Efficiency Review of the Mansfield, Ohio,                                    NO-AR-05-004
                           Main Post Office



                                                                                    APPENDIX G

                                        FAILED* MAILPIECES FROM STEUBENVILLE, OHIO, POST OFFICE BY MONTH

                     50


                     45
                                                                                                          Feb
                                                                                        Jan
                     40
                                   Oct


                     35
                                                                                                         Consolidation Date with Youngstown, Ohio
# of Failed Pieces




                     30
                                                                                                                          Mar
                     25
                                                       Nov                                                                                 Apr


                     20


                     15                                                                                                                                 May

                     10


                     5


                     0
                               Oct-03              Nov-03             Dec-03        Jan-04            Feb-04          Mar-04           Apr-04       May-04
                                                                                              Month


                          *Mailpieces recorded in the Origin Destination Information System that did not meet overnight delivery
                          standards.

                                                                               21
Efficiency Review of the Mansfield, Ohio,                             NO-AR-05-004
 Main Post Office




                                                         APPENDIX H

                         YOUNGSTOWN, OHIO, PLANET CODE* SCANS
            FROM MAY 4 THROUGH JUNE 4, 2004, AND JUNE 14 THROUGH JULY 13, 2004

                                                                          Total       On
                            Facility               Zip       Score                           Failed
                                                                         Pieces      Time
               Steubenville, Ohio                  439       98.98%        490       485       5
               Youngstown SCF*                     444       98.77%        81         80       1
               Youngstown, Ohio                    445       99.75%        805       803       2
                                                  TOTAL      99.42%       1,376      1,368     8
               * Sectional Center Facility




NOTE: This chart shows that delivery service scores exceeded the national service goal of 95 percent for the
Youngstown and Steubenville service area after consolidating Steubenville’s outbound mail on March 1, 2004.

*PLANET CODES are used to track letter sized mailpieces electronically.




                                             22
Efficiency Review of the Mansfield, Ohio,          NO-AR-05-004
 Main Post Office



                    APPENDIX I. MANAGEMENT’S COMMENTS




                                            23
Efficiency Review of the Mansfield, Ohio,        NO-AR-05-004
 Main Post Office




                                            24
